No.

IN THE

Supreme Court of tf)t

States

todd-anthony:aurit- PETITIONER
VS.
STATE OF COLORADO-RESPONDENT(S)
PROOF OF SERVICE
I, todd-a:aurit, affirm that on this date, 12-11- 2020, as required by Supreme
Court Rule 29 I have served the enclosed MOTION FOR LEAVE TO PROCEED
INFORMA PAUPERIS and PETITION FOR A WRIT OF CERTIORARI
(attachments omitted) on each party to the above proceeding or that party’s
counsel, and on every other person required to be served, by depositing an
envelope containing the above documents in the United States mail properly
addressed to each of them and with first-class postage prepaid, or by delivery to a
third-party commercial carrier for delivery with 3 calendar days.
The names and addresses of those served are as follows:
STATE OF COLORADO. PHIL WEISNER , Attorney General
Ralph L Carr Colorado Judicial Center, 1300 Broadway, 10th Floor
Denver ^Colorado 80203
I affirm under penalty of perjury that the foregoing is true and correct.
28 USC 1746(1)
RECEIVED
Executed on

12-11

,2020

°EC ) 6 2020
|uPR#M°F('Tnl.frS-l'S"J<

By:Estate of todd..

